3i

No. ^6 -/ffi

M vTi'-

S».

Supreme Court, U.S.
FILED

JUN 1 6 2021

In the Supreme Court of
the United States

OFFICE OF THE CLERK

In Re:
DARREL MENDEZ
v.
NRZ REO X LLC
On Petition for a
Writ of Certiorari To
The Arizona Supreme Court
Petition for a Writ of Certiorari
Darrel Mendez
21917 North 70lh Ave
Glendale, AZ 85310
In Propria Persona
dniserves@gmall.com

(i)
QUESTION PRESENTED

Currently Arizona uses a scheme of statutes to effectuate forced
conveyances of residential single- family property via a non-judicial
foreclosure. It is known as the Deed of Trust Scheme. Generally, the
property is taken from its owner, as here, by way of using the county
recorder’s office where the property is located.

The process includes a total of three documents typically all recorded by
the lenders substituted in a 90-day period after which time the trustee
sells the property at a trustee sale granting the property to the highest
bidder at that sale. Arizona Revised Statutes (A.R.S.) § 12-1177 (A) states
a trustee’s deed is presumed to comply with Arizona law and under A.R.S.
83-11(c) the homeowner waives all defenses to that sale once it has
occurred. Consequently, any subsequent homeowner claims are mute.
See A.R.S. § 12-1177(A) and A.R.S. § 33-811(C) where borrower “waives
all defenses and objections to the sale not raised in an action that results
in the issuance of a Court order granting relief...” Under these combined

statutes Petitioner “waived” his claims asserted under A.R.S. § 39-161
which prohibiting any person or entity from recording false instruments
that give rise to fraudulent, baseless claims of interest in real property.
However, Petitioner clearly did not “waive” these claims and therefore
has been deprived of his property without due process of law under the
fifth amendment. In some instances, as here, a constitutional injury
arises as a result of two or more statutory provisions operating together.
See, Seila Law LLC u. Consumer Financial Protection Bureau, March,
2020 citing, Free Enterprise Fund, supra, at 509 (stating that the
convergence

of “a

number of statutory provisions”

produce

a

constitutional violation). The provision requiring “good-cause removal is
only one of [the] statutory provisions that, working together, produce a
constitutional violation.” Arizona provides no path for a homeowner to
assert challenges to the trustee sale after it has occurred and the Deed of
Trust Scheme is an arrangement of statutes leading to non-judicial forced
conveyances without due process and is therefore unconstitutional.

Thus, the question presented here, Does the Arizona Deed of Trust
Scheme provide good cause for removal of one or more of its provisions
under severability?
The answer from this Court is of national importance in these
unprecedented times of our country s financial uncertainty. Many
homeowners across the county currently await these scheduled trustee
sales and also rely on the ability of the Consumer Financial Protection
Bureau (“CFPB”) for oversight and to enforce the protections of
homeowner’s potential excess proceeds after the trustee sale from these
same trustees who later represent the lender to acquire them from the
county treasurer.

(ii)
LIST OF PARTIES TO PROCEEDING
AND RELATED CASES

All parties are listed in the caption of the case on the cover of which
Respondent party is a Limited Liability Company.
Petitioner Darrel Mendez is Petitioner here and was also Petitioner in
the Arizona Supreme Court and the Court of Appeals.
NRZ REO X, LLC are Respondents here and were also Respondents in
the Arizona Supreme Court and the Court of Appeals.
RELATED CASES
Petitioner is aware of no other proceedings in other courts directly
related to the case in this Court Rule 14.1 (b)(iii).

(iii)
TABLE OF CONTENTS
1

Opinions below

2

Jurisdiction
Constitutional and Statutory Provisions

3

Statement of the Case

6

Reasons for Granting the Petition

7

Conclusion

11

Authorities

12

INDEX TO APPENDICES
Appendix A
Decision of Division One,
Arizona Court of Appeals
Appendix B
Decision of Arizona Supreme Court
Denying Review March 29, 2021
Enclosures:
Proof of Service
Certificate of Compliance

OPINIONS BELOW
Petitioner respectfully prays a Writ of Certiorari be issued by this
Court for review of the September 1, 2020 Memorandum Decision
from the Court of Appeals for the State of Arizona, designated as
Appendix A to the petition and is unpublished.
The March 29, 2021 Denial of discretionary review from the Arizona
Supreme Court, designated as Appendix B to the petition and is
unpublished.

JURISDICTION
The date on which the highest state court decided the case was
March 29, 2021. A copy of that decision appears at Appendix B.
Jurisdiction is invoked under 28 U. S. C. § 1257(a) and proper under
28 U.S.C. § 1254(1) and Supreme Court Rule 13.3. As Arizona’s Deed
of Trust statutory scheme is unjust in light of the Fifth Amendment
as well as the Fair Debt Collection Practices, which is an issue of
federal importance that should be settled by this Court.

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This injury was caused as the result of two statutory provisions
which all operating together lead to unconstitutional fact finding.
See, e.g., Free Enterprise Fund, supra, at 509 (stating that the
convergence of “a number of statutory provisions” produce a
constitutional violation); Booker, 543 U. S., at 316-317 (opinion of
THOMAS, J.) (explaining that “the concerted action of [18 U. S. C.]
§3553(b)(l) and the operative Guide-lines and the relevant Rule of
Criminal

Procedure

resulted

in

unconstitutional

judicial

factfinding”). The Deed of Trust scheme enacted in 1971 is
articulated in Title 33 of Arizona Revised Statutes (A.R.S.) §§ 33-801821 and is commonly used as “an alternative to the cumbersome
judicial foreclosure system.” See In re Krohn, 203 Ariz. 205, 208. P.3d
774, 777 (2002). However, problematic here is this combination of
statutory provisions in Arizona’s nonjudicial foreclosure scheme,
when implemented with those statutes’ interpretations deprive
homeowners from the outset from defending their property rights in

the Forcible Detainer Action (“FED”) and are denied due process
under the fifth amendment. In Arizona, a Recorded Trustees Deed is
a prima summary judgment in favor of the grantee as a result of
these strictly interpreted statutes. For instance, a person subject to
A.R.S. § 33-811(C) “cannot later challenge the sale based on pre-sale
defenses or objections.” See BT Capital, 229 Ariz. at 301 H 11, 275
P.3d at 600. Also A.R.S. § 12-1177(A) explains the purpose of the
FED is limited and intended to afford a summary, speedy and
adequate remedy for obtaining possession. In a FED action, "the only
issue shall be the right of actual possession and the merits of title
shall not be inquired into." Thus, the merits of the Plaintiffs title are
beyond the scope of an FED action. See A.R.S. § 12-1177(A) ( [In an
FED action], the only issue shall be the right of actual possession
and the merits of title shall not be inquired into.”); see also Curtis v.
Morris, 186 Ariz. 534, 534 (1996). Since the only issue is the right of
possession, the Plaintiff has the right of possession under the
trustee’s deed which will stand forever unopposed as allowed by this
presumption.

Mendez was

barred from asserting his claims against the fraudulent

trustee for the sole reason that the trustee was expressly designated
of the property by virtue of the recorded
as grantee, and owner
trustee’s deed. Recently in Obduskey v. McCarthy and Holthus LLP.
17-1307 this Court held that a business engaged in nonjudicial
foreclosure proceedings was not a debt collector under the Fair Debt
Collection Practices Act as long as they were engaged only in that
act. In Arizona these Plaintiffs are engaged in more than just the
sale including the recovery of excess proceeds after the sale
representing the lender or purchaser plaintiff in a forcible detainer
action.

These important issues have not been fully resolved

including the legitimate concerns of this Court.
“I would see as a different case one in which the defendant went
around frightening homeowners with the threat of foreclosure
without showing any meaningful intention of ever actually
following through. There would be a question, in such a case,
whether such an entity was in fact a “business the principal
purpose of which is the enforcement of security interests, ” see
§1692a(6), or whether it was simply using that label as a
stalking horse for something else.” See Obduskey v. McCarthy
and Holthus LLP, Justice Sotomayor, concurring.

STATEMENT OF THE CASE
In May 2006, Mendez executed a promissory note secured by a deed
of trust on his home in Arizona (“the property”). In February 2019,
U.S. Bank National Association (“U.S. Bank”), acting not in its
individual capacity but solely as Trustee” for a NRZ trust, purchased
the property at a trustee’s sale. After the appointed trustee conveyed
the property to U.S. Bank through a trustee s deed, U.S. Bank
executed a warranty deed transferring the property to NRZ. In early
March 2019, NRZ demanded he vacate the premises within five days.
Nine days later, NRZ sued Mendez for forcible detainer. After a
bench trial, the superior court entered judgment in favor of NRZ,
finding Mendez guilty of forcible detainer. Mendez timely appealed
as his rights were disregarded under Arizona Rules of Civil
Procedure 17(a). NRZ lacked capacity having brought the action via a
warran ty deed purportedly from US Bank which led to an inherently
faulted forcible detainer action.

REASONS FOR GRANTING THE PETITION
This Petition should be granted because Arizona is in direct conflict
with prevailing cases decided in California which rightfully
acknowledge wrongful foreclosure actions where, "If a purported
assignment necessary to the chain by which the foreclosing entity
claims that power is absolutely void, meaning of no legal force or
effect whatsoever, the foreclosing entity has acted without legal
authority by pursuing a trustee's sale, and such an unauthorized sale
constitutes a wrongful foreclosure. Barrionuevo v. Chase Bank, N.A.,
at pp. 973-974. "A void contract is without legal effect. (Rest.2d
Contracts,§ 7, com. A.) "It binds no one and is a mere nullity." (Little
v. CFS Service Corp. (1987) 188 Cal.App.3d 1354, 1362, 233
Cal.Rptr. 923.) "Such a contract has no existence whatever. It has no
legal entity for any purpose and neither action nor inaction of a party
to it can validate it...." (Colby v. Title Ins. And Trust Co. (1911) 160
Cal. 632, 644, 117 P. 913.) Clearly

California correctly recognizes that wrongful foreclosure is a valid
defense and ensures due process for its property owners. Arizona
Trustees Deeds are used as prima facia evidence in forcible detainer
actions. The deed of trust scheme enacted in 1971 is articulated in
Title 33 of our Arizona Revised Statutes. They are A.R.S. §§ 33-801 821 and used as an alternative to the often-cumbersome mortgage
and judicial foreclosure system. In re Krohn, 203 Ariz. 205, 208. P.3d
774, 777 (2002). One of the primary purposes served by a deed of
trust is that it permits a non-judicial foreclosure sale. Hogan, 230
Ariz. at 585, 1 5, 277 P.3d at 782. A.R.S. § 33-807 empowers the
trustee to sell the real property securing the underlying note through
a non-judicial sale because it creates rights and responsibilities in
three individuals or entities: “trustee,

trustor, and beneficiary.

A.R.S. §§ 33-801(1), -801(10), 801(11); Snyder v. HSBC Bank, USA,
N.A., 873 F. Supp. 2d 1139, 1148 (D. Ariz. 2012). The borrower, or
trustor, transfers legal title in the property to a trustee, while at the

same time retaining possession of the property and enjoying the
benefits of ownership. A.R.S. §§ 33- 801(8), -801(10); Eardley v.
Greenberg, 164 Ariz. 261, 264, 792 P.2d 724, 727 (1990); Brant v.
Hargrove, 129 Ariz. 475 480-81, 632 P.2d 978, 983-84 (App. 1981).
The trustee only holds bare legal title for the beneficiary, here Chase,
however the trustee’s title is supposed to be limited essentially
holding legal title for the sole purpose of selling the property if the
trustor/borrower defaults on the note. A.R.S. § 33-807(A), Eardley,
164 Ariz. at 264, 792 P.2d at 727. Borrowers are already stripped of
many protections available in judicial foreclosure which is the reason
lenders are required to strictly comply with the Deed of Trust
statutes and “the statutes and Deeds of Trust must be strictly
construed in favor of the borrower”. Patton v. First Fed. Sav. & Loan
Ass’n. of Phx., 118 Ariz. 473, 477 P.2d (1978). This Petition should
also be granted because this Court’s precedents are questionable as
to good cause for severability and should be resolved.

“the severability inquiry moves away from statutory
interpretation and falls back on this Court's questionable
precedents. See Murphy, 584 U. S., at (THOMAS, d.,
concurring) (slip op., at 4-6). An analysis of the Court’s
decisions in Booker and Free Enterprise Fund illustrates the
Court’s approach to determining which provision to sever when
confronting an injury caused by an unconstitutional
convergence of multiple statutory provisions.”
At issue here, the convergence of the Arizona s deed of trust
statutory provisions, a framework which streamlines the foreclosure
process and yet is still supposed to maintain protections for
borrowers and the public. This Court should determine whether the
public policy of protecting borrowers outweighs the interest in
enforcing the waiver of challenges continuously recited in all post
sale rulings, and if routinely waiving trustee sale irregularities
seriously disrupts protecting homeowners in light of constitutional
due process verses Arizona overall statutory scheme in totality gives
good cause for this Court to severe parts of it including A.R.S. §33811(B) and A.R.S. § 33-811(C) and determining judgment routinely
validates recorded trustees deed allowing the purported highest
bidder unopposed rights to actual possession of Arizona properties.

10

CONCLUSION
Petitioner was denied his right to constitutional due process as a
result of the convergence of these statutory provisions . This Petition
for a Writ

of Certiaori should be granted to allow challenges to the

recorded trustees deed, the trustee sale, and wrongful foreclosure
claims with oversight from the CFPB of any related actions,
especially to recover the proceeds of those sales. This Petition for a
Writ of Certiaori should be granted to allow homeowner challenges
to the recorded trustees deed, the trustee sale, and allow for wrongful
foreclosure claims and oversight from the CFPB of any related
actions to the proceeds of those sales.

Respectfully Submitted, June 21, 2021
/s/ Darrel Mendez
Darrel Mendez
21917 North 70th Ave
Glendale, AZ 85310
In Propria Persona
dmserves@gmail.com

11

